Report No. D-2008-006         October 26, 2007




          Automated Time Attendance
  and Production System's Compliance with the
    Defense Business Transformation System
              Certification Criteria
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

AT&L                  Acquisition Technology and Logistics
ATAAPS                Automated Time Attendance and Production System
BTA                   Business Transformation Agency
CCA                   Clinger-Cohen Act
CIO                   Chief Information Officer
CONOPS                Concept of Operations
DAA                   Designated Approving Authority
DBSMC                 Defense Business System Management Committee
DFAS                  Defense Finance and Accounting Service
DITSCAP               DoD Information Technology Security Certification and
                         Accreditation Process
ESG                   Executive Steering Group
FFMIA                 Federal Financial Management Improvement Act
IRB CONOPS            Investment Review Board Concept of Operations
IRWG                  Investment Review Working Group
L&P                   Labor and Production
NDAA                  National Defense Authorization Act
ODIG-AUD              Office of the Deputy Inspector General for Auditing
OIG                   Office of Inspector General
OSD                   Office of the Secretary of Defense
T&A                   Time and Attendance
USD                   Under Secretary of Defense
                              INSPECTOR GENERAL

                             DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON , VIRGINIA 22202-4704




                                                                    October 26, 2007



MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR
                 ACQUISITION, TECHNOLOGY, AND LOGISTICS
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Report on the Automated Time Attendance and Production System's
         Compliance with the Defense Business Transformation System
         Certification Criteria (Report No. D-2008-006)


      Weare providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.
         DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The management comments for Recommendation l.a. were responsive. However, we
request that the Deputy Under Secretary of Defense for Acquisition, Technology, and
Logistics, by November 30, 2007, provide the published certification guidance and
criteria for defining the tier-level designations, required documentation, and significance
of documentation because they were published after we conducted our audit work. The
Deputy Under Secretary of Defense for Acquisition, Technology, and Logistics comments
on Recommendation l .b. were partially responsive. Therefore, we request that the
Deputy Under Secretary of Defense for Acquisition, Technology, and Logistics provide
additional comments on Recommendation l .b. by November 30, 2007.
        Ifpossible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature . If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Patricia C. Remington at (703) 428-1054 (DSN 328-1054) or Ms. Carolyn J. Davis
at (703) 428-0470 (DSN 328-0470) . See Appendix B for the report distribution. The
team members are listed inside the back cover.
                                By direction of the Deputy Inspector General for Auditing:


                                          l~a-f!J~
                                          'lor Paul J. Granetto, CPA
                                    Assistant Inspector General and Director
                                      Defense Financial Auditing Service
                     Department of Defense Office of Inspector General
                                                                                          October 26, 2007
Report No. D-2008-006
      (Project No. D2006-D000FG-0203.000)

            Automated Time Attendance and Production System's
         Compliance with the Defense Business Transformation System
                            Certification Criteria

                                          Executive Summary

Who Should Read This Report and Why? DoD personnel who prepare, review,
certify, and approve Defense business system investments will find this report of interest.
It describes the Defense Finance and Accounting Service (DFAS) policies and
procedures used to approve the Defense business modernizations. Specifically, this
report discusses the procedures used to approve the FY 2006 modernization efforts for
the Automated Time Attendance and Production System (ATAAPS).
Background. The Deputy Under Secretary of Defense (Business Transformation)
requested that we review DoD Component compliance with the Defense Business
Transformation System Certification Criteria. This report is one in a series and discusses
the compliance of the ATAAPS with the Defense Business Transformation System
Certification Criteria. Additional reports will discuss other business systems compliance.
The “Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005”
(NDAA) states that funds appropriated for Defense business system modernizations in
excess of $1 million may not be obligated unless certified by the Designated Approving
Authority and approved by the Defense Business Systems Management Committee
(DBSMC). To comply with the NDAA, the DBSMC issued the Investment Review
Board Concept of Operations (IRB CONOPS). The IRB CONOPS provides guidance on
certifying Defense business system investments in excess of $1 million, which require an
Office of the Secretary of Defense-level review and approval. Defense business system
investments under $1 million do not require an Office of the Secretary of Defense-level
review and approval, unless designated as a special interest program. ∗ Investments under
$1 million are subjected to the Component-level review and approval process. The
Component-level investment review processes should be consistent with the NDAA and
the IRB CONOPS.
ATAAPS is a DFAS automated system. The system offers the ability to review the status
of an individual employee’s time and attendance file for current, future, and prior pay
periods.
Results. The Under Secretary of Defense for Acquisition, Technology, and Logistics
and DFAS did not implement sufficient controls to ensure that modernization decisions
were based on adequate documentation. As a result, the scope and total cost of the
approved effort were not accurately presented nor adequately and sufficiently supported

∗
    Special interest is based on technological complexity, Congressional interest, or program criticality to the
    achievement of a capability or set of capabilities. Special interest is also based on whether the program is
    a joint program or whether the resources committed to the program are substantial.
to show compliance with Federal laws and regulations. (See the Finding section of the
report for detailed recommendations.)
Management Comments and Audit Response. The Deputy Under Secretary of
Defense for Acquisition, Technology, and Logistics nonconcurred with the
recommendations. At the time we concluded our audit work, Office of the Deputy Under
Secretary of Defense for Acquisition, Technology, and Logistics personnel were unable
to provide evidence that they revised and published the certification guidance and criteria
for defining tier-level designations, required documentation, and significance of
documentation for the modernization packages. Therefore, we request that the Deputy
Under Secretary of Defense for Acquisition, Technology, and Logistics provide the
published certification guidance and criteria for defining the tier-level designations,
required documentation, and significance of documentation for the modernization
packages because they were published after we conducted our audit work.

Additionally, the Deputy Under Secretary of Defense for Acquisition, Technology, and
Logistics actions in response to the revised criteria for the modernization packages took
place after we conducted audit field work at DFAS Pensacola, Florida, and DFAS
Headquarters, Arlington, Virginia. Office of the Deputy Under Secretary of Defense for
Acquisition, Technology, and Logistics personnel were unable to provide evidence that
they approved or rejected certification packages based on compliance with laws and
regulations, such as the Federal Financial Management Improvement Act and the Clinger
Cohen Act. Therefore, we request that the Deputy Under Secretary of Defense for
Acquisition, Technology, and Logistics provide further comments explaining the specific
criteria used to approve and reject modernization packages.

The Director, Defense Finance and Accounting Service concurred with the
recommendation to improve the FY 2007 investment review process by updating process
documents and providing detailed instructions and procedures for completing workbooks.
For FY 2007, DFAS requires that all modernization efforts, regardless of dollar amount,
have the same documentation and level of review. (See the Finding section of the report
for the detailed recommendations.)

Management Actions. Although DFAS nonconcurred with our conclusion, we commend
them for taking positive action to correct the problem associated with the 4th Quarter
FY 05 Investment Review Board Guidance.




                                            ii
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objective                                                                 3

Review of Internal Controls                                               4

Finding
     Investment Review Process for Business Systems Investments           5

Appendixes
     A. Scope and Methodology                                            10
     B. Report Distribution                                              12

Management Comments
     Office of Under Secretary of Defense, Acquisition, Technology and   15
       Logistics

     Defense Finance and Accounting Service                              20
Background
    The Deputy Under Secretary of Defense (Business Transformation) requested that
    we review DoD Component compliance with the Defense Business
    Transformation System Certification Criteria. This report is one in a series and
    discusses the compliance of the Automated Time Attendance and Production
    System (ATAAPS) with the Defense Business Transformation System
    Certification Criteria.

    National Defense Authorization Act. On October 28, 2004, Congress passed
    Public Law 108-375, “Ronald W. Reagan National Defense Authorization Act for
    Fiscal Year 2005” (NDAA). Section 2222 of the NDAA states that funds
    appropriated for Defense business modernizations in excess of $1 million may not
    be obligated unless the Designated Approving Authority (DAA) certifies the
    modernization to the Defense Business Systems Management Committee
    (DBSMC), and the DBSMC approves the certification. The NDAA defines
    business system modernizations as, “the acquisition or development of a new
    defense business system or any significant modification or enhancement of an
    existing system.” In addition, the NDAA required the Secretary of Defense to
    delegate the review, approval, and oversight of the Defense business systems to
    the following four Offices of the Secretary of Defense (OSD)-level approval
    authorities:

           •   Under Secretary of Defense for Acquisition, Technology, and
               Logistics (USD [AT&L]);

           •   Under Secretary of Defense (Comptroller);

           •   Under Secretary of Defense for Personnel and Readiness; and

           •   Assistant Secretary of Defense for Networks and Information
               Integration and Chief Information Officer of the Department of
               Defense.

    Each approving authority is required to establish an investment review process
    that periodically (at least annually) reviews all business system investments. In
    addition, the process should include an Investment Review Board (IRB) review
    and approval for each Defense business system.

    Section 186 of the NDAA directed the Secretary of Defense to establish the
    DBSMC. The DBSMC is responsible for coordinating Defense business system
    modernization initiatives to maximize benefits and minimize costs, and ensure
    that funds are obligated for Defense business systems in a manner consistent with
    section 2222 of the NDAA.

    Investment Review Board Concept of Operations. On June 2, 2005, the
    DBSMC issued the Investment Review Board Concept of Operations (CONOPS).
    The CONOPS integrates policies, specifies responsibilities, and establishes
    processes to comply with section 2222 of the NDAA. It outlines the investment
    review process that all IRB members, Components, chief information officers



                                         1
           (CIOs), and program managers should follow if they have responsibility for
           business system investments.

           The CONOPS introduces a structured investment review and certification process
           that includes determining review and certification requirements, Component
           review, and OSD-level review and certification. The CONOPS identifies three
           levels of certification review or tiers. Tier certification processes are established
           based on the program scope, cost, and complexity. The tier process also provides
           flexibility if the program has been designated as a special interest program. 1 The
           CONOPS defines the following tier certification processes.

           •    Tier 1: certification processes that apply to Major Automated Information
                Systems or programs.

           •    Tier 2: certification processes that apply to modernizations and investments
                valued at $10 million to less than the Major Automated Information System
                threshold, 2 or those designated as special interest.

           •    Tier 3: certification processes that apply to those modernizations and
                investments greater than $1 million to less than $10 million.

           The CONOPS provides guidance on preparing, reviewing, and certifying Defense
           business system investments in excess of $1 million, which require an OSD-level
           review. Defense business system investments under $1 million do not require an
           OSD-level review and approval, unless designated as a special interest program.
           Instead, investments under $1 million require a Component-level review and
           approval process. 3 The CONOPS requires Components to establish their own
           governance structures for investment review to support their transformation
           initiatives. The Component investment review processes should be consistent
           with the NDAA and the CONOPS. Other than Component-developed procedures,
           there are no criteria for reviewing and approving investments under $1 million.

           Business System investments under $1 million are categorized as Tier 4
           investments. However, the definition of Tier 4 is not described in the IRB
           CONOPS. The Business Transformation Agency (BTA) 4 established this term in
           a manual titled, “Investment Certification and Annual Review Process User
           Guidance,” dated April 10, 2006. The BTA established the User Guidance after
           the ATAAPS modernization investment was certified. Therefore, this guidance is
           not part of the criteria used to evaluate the ATAAPS modernization and
           accreditation process.

           Defense Finance and Accounting Service Investment Review Process. The
           Defense Finance and Accounting Service (DFAS) developed a Component-level
           review and approval process. For FY 2006 modernization investments under
           $1 million, DFAS developed and used workbooks. The workbooks were modeled

1
    Special interest is based on technological complexity, Congressional interest, or program criticality to the
    achievement of a capability or set of capabilities. Special interest is also based on whether the program is
    a joint program or whether the resources committed to the program are substantial.
2
    The current Major Automated Information System threshold is $32 million.
3
    The process is referred to as a Tier 4 process.
4
    The BTA serves the interest of the entire Business Mission Area of the DoD and reports to the Under
    Secretary of Defense for Acquisition, Technology, and Logistics.


                                                        2
after the standard set of IRB criteria outlined in the CONOPS. The workbooks
contained system-specific questions. System managers were required to certify if
their automated systems were aligned with applicable policies, laws, and
regulations. Specifically, system managers were required to indicate if their
system was compliant with the Clinger-Cohen Act (CCA), DoD Information
Technology Security Certification and Accreditation Process (DITSCAP), and the
Federal Financial Management Improvement Act (FFMIA).

Clinger-Cohen Act. The CCA of 1996 establishes a top-down restructuring of
Federal information technology acquisition programs. The goal of the CCA is to
improve the acquisition and management of Federal information technology
programs. The CCA requires the establishment of an efficient and effective
information technology program for the Federal Government.

DoD Information Technology Security Certification and Accreditation
Process. The DITSCAP establishes a standard Department-wide process, set of
activities, general tasks, and a management structure to certify and accredit
information systems and maintain the information assurance and security posture
of the Defense information infrastructure throughout the life cycle of each system.
The accreditation process is a formal declaration by the DAA that an information
system is approved to operate in a particular security mode using a prescribed set
of safeguards at an acceptable level of risk.

Federal Financial Management Improvement Act of 1996. The FFMIA was
enacted in 1996 to ensure consistent accounting by an agency from one fiscal year
to the next. The FFMIA also requires uniform accounting standards throughout
the Federal Government. Federal financial data, including the full costs of
Federal programs and activities, are required so that programs and activities can
be considered based on their full costs and merits.

Automated Time Attendance and Production System. For FY 2005, the
ATAAPS system manager completed a workbook for a $5.9 million
modernization of the ATAAPS. The ATAAPS captures time and attendance
(T&A) and labor and production (L&P) data and feeds it into the Defense
Civilian Pay System and accounting systems on a daily basis. It provides the user
a single, consolidated input method for reporting both T&A and L&P
information. The system is configured to support core financial requirements for
DFAS, as well to provide civilian T&A services for its customers located at DoD
and non-DoD activities worldwide.

ATAAPS is modularly designed, and system functions are separated into
individual modules that may be accessed by menu selections from the
ATAAPS module select screen. The system provides for internal control
of access modules through the use of security authorizations assigned to
employee records. The system also offers the ability to review the status of
an employee’s T&A file for current, future, and prior pay periods.

ATAAPS produces an electronic time and attendance report and can
generate individual and summary inquiries for various users.




                                     3
Objective
     Our overall audit objective was to determine whether ATAAPS was properly
     certified and accredited in accordance with the Defense Business Transformation
     Certification Criteria. Specifically, we determined if ATAAPS complied with the
     Investment Review Process. Although an announced objective, we did not
     review the management control program as it related to the overall objective
     because a management control program was not developed for the Investment
     Review Process. See Appendix A for a discussion of the scope and methodology.


Review of Internal Controls
     The USD (AT&L) and DFAS did not implement sufficient controls to ensure that
     the modernization decision for ATAAPS was based on adequate documentation.
     As a result, the DFAS Executive Steering Group approved the modernization for
     $991,000 based on unsupported information. Without adequate standard
     procedures and controls for modernization investments, the DFAS Executive
     Steering Group may continue to approve procurements that are not adequately
     supported and reviewed. See the Finding section of the report for a complete
     discussion of our review.




                                        4
           Investment Review Process for Business
           Systems Investments
           The USD (AT&L) and DFAS did not implement sufficient controls for
           preparing, supporting, and pre-certifying modernization packages. The
           USD (AT&L) and DFAS did not have sufficient controls in place to
           ensure that information in modernization packages was validated,
           complied with Federal and DoD guidance, and was supported by adequate
           documentation. This occurred because the USD (AT&L) investment
           review process guidance was inadequate for DFAS to prepare, validate,
           review, and submit its modernization packages. This guidance was
           continuously being modified, which created uncertainty as to what was
           required to be submitted and reviewed. Specifically, the guidance did not
           clearly identify and define:

              •   tier-level designations,

              •   required documentation, and

              •   significance of documentation

           As a result, the scope and total cost of the approved effort were not
           accurately presented, and compliance with Federal laws and regulations
           was not substantiated.


DFAS Investment Review Process
    On September 2, 2005, DFAS established its own investment review process and
    governance structure to support Component transformation initiatives and to
    comply with the CONOPS. DFAS designated the CIO as the headquarters-level
    authority accountable for business system investments. The CIO acts as the Pre-
    Certification Authority for business system modernizations or enhancements
    under and over $1 million. The CIO pre-certifies and submits the investment
    proposals to the IRB.

    DFAS Executive Steering Group. The Executive Steering Group (ESG) is the
    agency’s primary, executive-level, decision-making body that reports to the
    Director of DFAS. Among many other responsibilities, the ESG oversees the
    DFAS portfolio management initiatives. In doing so, the ESG serves as the
    Component-level IRB for DFAS. It reviews and approves investment proposals
    based on decision criteria, such as the CONOPS and internal DFAS policies and
    procedures.

    DFAS Investment Review Working Group. The ESG established the DFAS
    Information Technology Investment Review Working Group (IRWG) to conduct
    due diligence reviews and provide input on information technology portfolio and
    investment issues to the ESG. It is chaired by the Deputy CIO and is composed
    of representatives from each DFAS directorate or business line. The IRWG
    coordinates and resolves investment issues that arise during the Portfolio


                                        5
    Management Processes. This process is part of the DFAS governance process for
    information technology investment management and review. The IRWG also
    recommend approval of investment proposals to the ESG.

    DFAS IRB Process for Investments over $1 Million. The IRWG assists in
    overseeing the Investment Review Process. Prior to obligating funds for
    modernizations and enhancements over $1 million, DFAS required that system
    managers complete an IRB workbook providing system information. System
    managers were required to complete the workbook by answering system-related
    questions and providing supplemental documents, such as architecture diagrams.
    The workbook and supplemental materials were reviewed by the IRWG. If the
    investment proposals were satisfactory, the IRWG recommended certification to
    the CIO. The CIO would then pre-certify and recommend approval and
    certification of the investment proposal to the IRB and the DBSMC.


Tier Designation and Funding Validation
    DFAS certified ATAAPS using the certification process for a Tier 4 system
    modernization, when, in fact, ATAAPS is a Tier 3 system modernization. When
    DFAS submitted the ATAAPS certification package for review and certification
    to the DoD IRB, DFAS requested funding approval of $991,000 for the
    modernization investment. However, this amount represented the investment for
    FY 2006 only and did not include the total funding of $5.9 million as represented
    in the Economic Viability Review.

    The DoD IRB determined that the modernization investment was under the
    $1 million threshold, based on the information provided by DFAS. Consequently,
    the DoD IRB returned the modernization package to DFAS for review and
    certification by the ESG. Therefore, the ATAAPS modernization package was
    not certified by the designated DoD IRB or approved by the DBSMC.


FY 2006 Automated Time Attendance and Production System
  Workbook
    The USD (AT&L) and DFAS did not implement sufficient controls to ensure that
    the modernization decision for ATAAPS was based on adequate documentation.
    In addition, USD (AT&L) and DFAS guidance did not emphasize the significance
    of appropriate supporting documentation to show CCA and FFMIA compliance.
    Although the ATAAPS workbook did not show supporting documentation for
    CCA and FFMIA compliance, the ATAAPS system manager did provide
    supporting documentation for DISTCAP compliance.

    We reviewed the ATAAPS modernization package prepared by the ATAAPS
    system manager and submitted to DFAS for validation and approval. The
    modernization package included questions that dealt with ATAAPS compliancy
    with the CCA and the FFMIA.

    The IRB CONOPS guidance issued by USD (AT&L) was effective on June 2,
    2005. This guidance did not require the system manager to provide supporting


                                        6
documentation to validate the responses in the workbook. Without clear
guidance, the system owners were not aware of the need to provide
documentation to support CCA and FFMIA compliance.

Clinger-Cohen Act. The IRB workbook stated that ATAAPS was compliant
with CCA. However, we could not sufficiently validate whether ATAAPS was
compliant with CCA because of the lack of supporting documentation. For
example, the program manager should have documentation to show the rationale
and justification for the investment selection, details on how the investment was
managed, and an evaluation of the results of investment. This documentation did
not exist because the program mangers did not receive guidance on what
documentation was required and should be maintained to support each IRB
workbook response. Although DFAS is working to refine the CCA compliance
and validation process, ATAAPS compliance with CCA for FY 2006 was not
sufficiently validated and remains unsupported.

The CCA establishes a management framework for translating mission needs and
technology opportunities, based on approved mission needs and requirements,
into well-managed acquisition programs, such as automated information systems.
According to the CCA of 1996, the executive agency is responsible for designing
and implementing a process for maximizing the value and assessing and
managing the risks of the information technology acquisitions of the agency.
Specifically, the process should provide for the:

    •   selection of information technology investments,

    •   management of such investments,

    •   evaluation of the results of such investments, and

    •   minimum criteria for considering undertaking a particular investment.

Federal Financial Management Improvement Act of 1996. In the IRB
workbook, the system manager answered that ATAAPS was FFMIA compliant.
However, we could not sufficiently validate whether ATAAPS was compliant
with FFMIA because the system manager did not provide documentation to
support the compliance with FFMIA. DFAS investment review guidance does
not require system managers to maintain documents used to support the responses
in the modernization submission package.

The FFMIA requires that agencies provide reliable, timely financial information;
protect resources from loss, misappropriation, or destruction; and comply with
Federal financial accounting standards. Additionally, the FFMIA requires each
agency to implement and maintain financial systems that comply with Federal
financial management system requirements, applicable Federal accounting
standards, and the United States General Ledger at the transaction level. The
FFMIA requires agencies to report whether their financial management systems
comply with the requirements of the Act.

The ATAAPS system manager needed to maintain documentation that supported
responses to the IRB workbook questions. The system manager also needed to
ensure that the supporting documentation was current and provided the best
assurance that responses were valid. Supporting documentation should be
retained and maintained so they can be used to verify the responses in the

                                     7
    modernization submission package and compliance with Federal laws and
    regulations.

    DoD Information Technology Security Certification and Accreditation
    Process. In addition to the CCA and FFMIA, we reviewed the IRB workbook to
    determine whether it contained supporting documentation to show compliance
    with DITSCAP.

    DISTCAP requires recertification every 3 years or whenever changes occur to the
    mission, software, hardware configuration, or operating environment that are
    significant and affect the original security posture accepted by the DAA. In
    addition, DoD 8510.1-M, “DISTCAP Application Manual,” states that post
    accreditation activities will include ongoing maintenance of the System Security
    Authorization Agreement, system operations, security operations, configuration
    management, and compliance validation. The DISTCAP Application Manual
    also states that site operations staff and the Information Systems Security Officer
    are responsible for maintaining an acceptable level of residual risk. This is
    achieved by addressing security considerations when changes are made to either
    the information system baseline or the baseline of the computing environment.

    The ATAAPS system manager was able to provide a signed and updated copy of
    the System Security Authorization Agreement to support the IRB response in the
    workbook. As a result, the DITSCAP assertion of compliance was adequately
    supported.


Conclusion
    DFAS did not ensure that the ATAAPS modernization package was properly
    prepared, supported, and approved by the appropriate IRB approval authority.
    Because USD (AT&L) did not provide clear guidance on tier-level designations,
    the total cost and scope of the approved effort were not accurately presented and
    supported. Additionally, because the DBSMC and DFAS did not specify the
    required IRB workbook documentation, the ATAAPS modernization package was
    approved without supporting documentation.


Recommendations, Management Comments, and Audit
Response
    1.  We recommend that the Deputy Under Secretary of Defense for
    Acquisition, Technology, and Logistics:

            a. Revise and clarify the Defense Business Transformation System
    Certification Criteria and the Investment Review Process. Specifically, the
    criteria need to address:

                   (1) tier-level designations,
                   (2) required documentation, and



                                         8
                   (3) significance of documentation.
Management Comments. The Deputy Under Secretary of Defense for Acquisition,
Technology, and Logistics nonconcurred. The Deputy Under Secretary of Defense
for Acquisition, Technology, and Logistics stated that he revised and published the
certification guidance and criteria for defining tier-level designations, required
documentation, and significance of documentation.
Audit Response. Although the Deputy Under Secretary of Defense for Acquisition,
Technology, and Logistics nonconcurred with the recommendations, we consider the
management comments responsive. However, we request that the Deputy Under
Secretary of Defense for Acquisition, Technology, and Logistics provide the
published certification guidance and criteria for defining the tier-level designations,
required documentation, and significance of documentation because they were
published after we conducted our audit work at DFAS Pensacola, Florida, and DFAS
Headquarters, Arlington, Virginia.
     b. Establish approval and rejection criteria for the modernization
packages to include compliance with applicable laws and regulations.
Management Comments. The Deputy Under Secretary of Defense for Acquisition,
Technology, and Logistics nonconcurred with the recommendation, stating that
procedures were in place to support approval and rejection criteria.
Audit Response. The Deputy Under Secretary of Defense for Acquisition,
Technology, Logistics comments are partially responsive. When we concluded our
audit work, Office of the Deputy Under Secretary of Defense for Acquisition,
Technology, and Logistics personnel were unable to provide evidence that they
approved or rejected modernization packages based on compliance with laws and
regulations, such as FFMIA and the Clinger Cohen Act. We request that the Deputy
Under Secretary of Defense for Acquisition, Technology, and Logistics provide
comments in response to the final report explaining what specific criteria were used
to approve and reject modernization packages.
2. We recommend that the Director, Defense Finance and Accounting Service
review the revised Defense Business Transformation System Certification
Criteria and Investment Review Process and develop supplemental guidance as
necessary to ensure compliance with Federal and DoD regulations.
Management Comments. The Director, Defense Finance and Accounting Service
concurred, stating that DFAS has improved the FY 2007 investment review process
by updating its process documents and providing detailed instructions and procedures
for completing workbooks. Further, DFAS requires that all modernization efforts,
regardless of dollar amount, have the same documentation and level of review. In
addition, DFAS has added subject matter experts to the IRWG to ensure better
reviews of modernization packages to comply with the Clinger-Cohen Act,
DITSCAP, Business Enterprise Architecture, and Standard Financial Information
Structure. Lastly, for FY 2007, the IRWG has published standard review criteria,
including instructions for each topic area of the books and reporting documentation
required for review.
Audit Response. We commend DFAS for taking positive action to correct the
problem associated with the 4th Quarter FY05 Investment Review Board Guidance.
No further comments are required.


                                         9
Appendix A. Scope and Methodology
   We conducted this performance audit from May 2006 through March 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We performed the audit at DFAS Headquarters in Arlington, Virginia, and DFAS
   Pensacola, Florida. We reviewed the DFAS Investment Review Process used to
   approve the obligation of funding for FY 2006 ATAAPS modernization efforts.
   We interviewed the ATAAPS system manager. We also obtained and reviewed
   DFAS Investment Review Process procedures and documentation. Specifically,
   we reviewed charters, designation letter, and the FY 2006 ATAAPS
   modernization workbook and supplemental documentation

   We reviewed and compared the procedures and documentation to the following
   laws, policies, and DFAS guidance related to the Defense Business System
   Investment Review Process. Specifically, we:

          •   interviewed personnel and discussed policies and procedures at DFAS
              Headquarters in Arlington, Virginia; DFAS Cleveland Program
              Management Office; and the Technical Service Organization in
              Pensacola, Florida;

          •   reviewed and analyzed documentation submitted by DFAS Pensacola
              to DFAS Headquarters and the Executive Steering Group; and

          •   reviewed and compared the procedures and documentation to the
              following laws and DFAS guidance related to the Investment Review
              Process. Specifically, we reviewed:

                 − Public Law 108-375, “Ronald W. Reagan National Defense
                   Authorization Act for Fiscal Year 2005 (NDAA),”
                   October 28, 2004;

                 − Public Law 104-208, “Federal Financial Management
                   Improvement Act,” September 30, 1996;

                 − Public Law 104-106, “Clinger Cohen Act,” February 10, 1996;

                 − DoD Instruction 5200.4, “DoD Information Technology
                   Security Certification and Accreditation Process,”
                   December 30, 1997;

                 − DoD Manual 8510.1-M, “DoD Information Technology
                   Security Certification and Accreditation Process Application
                   Manual,” July 31, 2000;




                                      10
                  − “Investment Review Process Overview and Concepts of
                    Operations For Investment Review Boards,” May 17, 2005;

                  − “Business Systems Investment Review Proposal Submission
                    Guideline,” July 17, 2005; and

                  − “DoD Information Technology Registry Merger Into the DoD
                    Information Technology Portfolio Registry,”
                    September 28, 2005.

    We did not review the management control program as it related to the
    Investment Review Process because a management control program has not been
    established for this process.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Business System Modernization and the DoD
    Approach to Business Transformation high-risk areas.


Prior Coverage
    No prior coverage has been conducted on the Automated Time Attendance and
    Production System during the last 5 years.




                                        11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
Assistant Secretary of Defense (Networks and Information Integration/Administration
  and Management)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Business Transformation Agency
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations




                                          12
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      13
Office of the Under Secretary of Defense,
Acquisition, Technology, and Logistics




                       15
16
17
18
19
Defense Finance and Accounting Service
Comments




                      20
21
22
Team Members
The Department of Defense Office of the Deputy Inspector General for
Auditing, Defense Financial Auditing Service prepared this report. Personnel of
the Department of Defense Office of Inspector General who contributed to the
report are listed below.

Paul J. Granetto
Patricia A. Marsh
Patricia C. Remington
Elaine M. Jennings
Carolyn J. Davis
Julio Gonzalez
Yolanda Bailey
Gregory Crawford
Ann L. Thompson
